U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Shannon Keith Harris v. United States, No. 20-6832
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 5,
2021, and placed on the Court’s docket on January 11, 2021. The response of the United States
is now due, after one extension, on March 12, 2021. We respectfully request, under Rule 30.4 of
the Rules of this Court, a further extension of time to and including April 9, 2021, within which
to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6832
HARRIS, SHANNON KEITH
USA

JOSHUA BRADLEY LAKE
FEDERAL PUBLIC DEFENDERS OFFICE
440 LOUISIANA STREET
SUITE 1350
HOUSTON, TX 77002
713-718-4600

